Report No. D-2010-037            January 25, 2010




 Internal Controls Over United States Marine Corps
Commercial and Miscellaneous Payments Processed
    Through the Deployable Disbursing System
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.


Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
DDS                           Deployable Disbursing System
DFAS                          Defense Finance and Accounting Service
DOD FMR                       DOD Financial Management Regulation
EDA/VPS                       Electronic Document Access/Voucher Processing System
PMO                           Program Management Office
SABRS                         Standard, Accounting, Budgeting, and Reporting System
U.S.C.                        United States Code
USMC                          United States Marine Corps
                                    INSPECTOR GE NERAL
                                  DEPARTMENT OF DE FENSE
                                     400 AR MY NAVY DRIVE
                                ARLI NGTON, VIRG INIA 22202-4704



                                                                                  January 25, 2010

MEMORANDUM FOR NAVAL INSPECTOR GENERAL
               DIRECTOR, DEFENSE FINANCE AND ACCOUNTING SERVICE


SUBJECT: Internal Controls Over United States Marine Corps Commercial and Miscellaneous
          Payments Processed Through the Deployable Disbursing System
          (RepOli No. D-2010-037)


We are providing this report for your information and use. We considered management conU11ents
on a draft of this report when preparing the final repOli. The Department of the Navy and Defense
Finance and Accounting Service comments conformed to the requirements of DOD
Directive 7650.3; therefore, additional comments are not required. The complete text of the
comments is in the Management Comments section of the report.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8900 (DSN 664-8900).




                                          I ~~~~
                                        Deputy Inspector General
                                              for Auditing
      Report No. D-2010-037 (Project No. D2007-D000FL-0252.001)                    January 25, 2010


               Results in Brief: Internal Controls Over
               United States Marine Corps Commercial and
               Miscellaneous Payments Processed Through
               the Deployable Disbursing System
                                                          capture the audit trail for key payment
What We Did                                              information, such as, certifying officer name,
The objective of the audit was to determine              contract or requisition numbers, invoice
whether the internal controls over transactions          received date and, invoice number for 185 of
processed through the Deployable Disbursing              200 payments in our sample;
System (DDS) were adequate to ensure the                  adequately capture line of accounting
reliability of the data processed. The audit             information; and
included financial information processed by               centralize data for efficient management
disbursing stations supporting the Operation             oversight and review.
Iraqi Freedom and included the recording of
related obligations. We focused our review on            We determined the USMC did record timely
United States Marine Corps (USMC)                        and sufficiently $6.3 million in obligations for
commercial and miscellaneous payments. The               150 commercial and miscellaneous payments.
USMC processed more than 22,870 payments of
at least $520 million during FYs 2006 and 2007.          What We Recommend
                                                         We recommend that the Assistant Deputy
What We Found                                            Commandant, Programs and Resources
USMC internal controls over payments                     Department, and Fiscal Director of the USMC,
processed through DDS were not adequate to               develop and implement procedures to:
ensure the reliability of the data processed.             eliminate multiple user accounts,
Specifically, USMC did not:                               minimize system administrators,
 properly authorize 9,675 payment vouchers,              collect on over payments,
totaling $310.4 million;                                  review the DDS data,
 separate authorization and payment duties;              resolve 806 missing vouchers, and
 adequately control access because it used               maintain a centralized DDS database.
14 multiple user accounts and 14 generic user
accounts to process a combined total of                  We recommend the Director, DFAS, enhance
$52.7 million in payments; and                           DDS to improve the oversight and review
                                                         capabilities, and maintain data reliability.
 maintain a centralized database of the
transactions processed through DDS.
In addition, the USMC made 32 duplicate                  Management Comments and
payments, totaling $2.5 million that if collected,       Our Response
could be funds put to better use. (Appendix C)       The Assistant Secretary of the Navy (Financial
                                                     Management and Comptroller) (Acting) and the
The Defense Finance and Accounting Service           Director, DFAS Information and Technology,
(DFAS) did not design DDS to:                        agreed with our recommendations and the
 provide sufficient functionality for management to USMC concurred with the potential monetary
readily review and monitor DDS access and usage;     benefits. Please see the recommendations table
                                                     on page ii.
                                                     i
  Report No. D-2010-037 (Project No. D2007-D000FL-0252.001)            January 25, 2010

Recommendations Table

Entity                               Recommendations          No Additional Comments
                                     Requiring Comment        Required
Assistant Deputy Commandant,                                  A.1.a.1, A.1.a.2, A.1.a.3,
Programs and Resources                                        A.1.a.4, A.1.b, A.1.c, A.1.d,
Department; and Fiscal Director of                            B.1.a, and B.1.b
the United States Marine Corps
Director, Defense Finance and                                 A.2.a, A.2.b, A.2.c, B.1.a,
Accounting Service                                            B.1.b, B.2.a, B.2.b, B.2.c,
                                                              B.2.d, and B.2.e




                                             ii
Table of Contents

Introduction                                                           1

      Objective                                                       1
      Background                                                      1
      Review of Internal Controls                                     4

Finding A. Controls Over Disbursement Authorizations and DDS Access    5

      Recommendations, Management Comments, and Our Response          14
      Management Comments on the Potential Monetary Benefits
           and Our Response                                           18

Finding B. Reliability of USMC Payment Data                           19

      Recommendations, Management Comments, and Our Response          24

Finding C. Recording Obligations                                      27

Appendices

      A. Scope and Methodology                                        29
             Prior Coverage                                           30
      B. USMC Disbursement Cycle                                      32
      C. Summary of Potential Monetary Benefits                       34

Management Comments

      Department of the Navy                                          35
      Defense Finance and Accounting Service                          38
Introduction
Objective
Our audit objective was to determine whether the internal controls over transactions
processed through the Deployable Disbursing System (DDS) are adequate to ensure the
reliability of the data processed. The audit included financial information on commercial
and miscellaneous payments processed by disbursing stations supporting the Operation
Iraqi Freedom and included the recording of related obligations. Please see Appendix A
for scope and methodology and prior coverage related to the objective.

Background
On May 22, 2008, DOD Inspector General Audit Report D-2008-098 “Internal Controls
Over Payments Made in Iraq, Kuwait, and Egypt,” addressed a material internal control
weakness over in-theater payments. In response to a draft of that report, the Under
Secretary of Defense (Comptroller)/Chief Financial Officer stated that DDS would
improve the controls. As follow-on to the audit of “Internal Controls Over Payments
Made in Iraq, Kuwait, and Egypt,” we reviewed the controls over commercial and
miscellaneous payments processed through DDS. This audit is the second of a series of
audits that addresses DDS internal controls and the United States Marine Corps’ (USMC)
use of DDS. The first audit reported that the USMC recorded classified information in
unclassified DOD Systems. The third audit will report on the U.S. Army’s mishandling
of classified information posted in DDS.

Deployable Disbursing System
The Defense Finance and Accounting Service (DFAS) DDS Program Management
Office (PMO) developed DDS to fulfill a need for a tactical disbursing system and to
maintain accountability of Treasury funds entrusted to disbursing agents. DDS automates
a variety of disbursing office functions including travel, military, commercial, and
miscellaneous payments; accounts payable; collection processes; and financial reporting
requirements.

According to USMC personnel, prior to implementing DDS, the entire deployed
accountability and disbursement process was manual. Operating in a deployed
environment with a manual process was unmanageable because the USMC did not
have a way to ensure that the accountability and disbursement documentation was being
prepared as required. The USMC began using DDS in FY 2006. DDS brought systemic
enforcement of accountability and disbursing requirements and improved transparency
over the process.

The USMC uses DDS at main sites located in Camp Pendleton, California; Camp
Lejeune, North Carolina; and Camp Foster, Okinawa, Japan. In addition, USMC deploys
disbursing personnel from the main sites to remote sites in Southwest Asia (for example,
Camp Fallujah, Iraq and Camp Al Asad, Iraq). The main site disbursing stations
accumulate disbursing data from their respective remote sites.


                                            1
In FYs 2006 and 2007, the USMC processed through DDS more than 22,872 commercial
(contract and vendor payments) and miscellaneous payment vouchers totaling at least
$520 million. Miscellaneous payments included condolence payments 1 and some travel
and military payments. Table 1 provides a breakout of commercial and miscellaneous
payments processed through DDS.

           Table 1. USMC Commercial and Miscellaneous Payments
                Processed Through DDS in FYs 2006 and 2007
    Source/Type of Files      Number of Vouchers*            Value
                                                         (in millions)
DDS Databases                         9,675                 $310.4

Archived DDS Vouchers                                13,197                          209.6

    Total                                            22,872                        $520.0

* We identified at least 806 additional USMC disbursements for which the DDS PMO did not provide DDS
data. For additional detail, see Finding B.

Of the 9,675 DDS vouchers totaling $310.4 million, remote sites in Iraq processed
through DDS $158.7 million 2 in cash and check vouchers. The main sites processed all
Electronic Fund Transfer payments to include those payments initiated at remote sites.
We did not determine the method of payment for the 13,197 archived DDS vouchers
totaling $209.6 million because the USMC and DDS PMO did not provide this data in
time for our review.

USMC Roles and Responsibilities for Disbursing
The Marine Corps Disbursing Operations and Systems Section, Kansas City, Missouri,
provides oversight to the USMC field finance and disbursing offices. The Marine Corps
Disbursing Operations and Systems Section is responsible for ensuring that USMC
disbursing personnel follow internal controls. The disbursing offices located at Camps
Pendleton, Lejeune, and Foster perform the day-to-day disbursing operations.

USMC Procurement and Disbursing Process
The USMC disbursing cycle starts with a request for a procurement action. The
requestor enters a procurement request into the USMC in-theater procurement system.
The USMC uses the Standard Accounting, Budgeting, and Reporting System (SABRS) to
record the commitment and obligation of funds for the request. Once the vendor provides
the goods or services, the receiving official acknowledges receipt of goods or services on
the receiving report. When the vendor provides an invoice, the certifier then reviews the



1
  A condolence payment is an expression of sympathy for death, injury, or property damage caused by
coalition or U.S. forces generally during combat.
2
  The remote sites processed 5,217 cash payments totaling $60.4 million and 1,122 check payments totaling
$98.3 million.


                                                   2
supporting documentation and certifies the voucher for payment. When the voucher and
supporting documentation is certified, the disbursing office can make a payment using
DDS. See Appendix B for a detailed discussion and flowchart of this process.

Federal Financial System Requirements
DDS processes Operation Iraqi Freedom transactions and, based on the dollar value of
the transactions processed, is a key component of the USMC financial system. Office of
Management and Budget Circular No. A-127, “Financial Management Systems,” July 23,
1993, 3 states that a “financial system” is an information system, consisting of one or
more applications, that an entity uses to collect, process, maintain, transmit, and report
data about financial events.

The Federal Financial Management Improvement Act of 1996 requires that agencies
comply with Federal accounting standards and Federal financial management system
requirements (Federal system requirements). The Office of Federal Financial
Management, Office of Management and Budget, issues the Federal system
requirements. The Office of Federal Financial Management, Report No. OFFM-NO-
0106, “Core Financial System Requirements,” January 2006 (Core Financial System
Requirements), are the mandatory functional and technical requirements that agency
financial management systems must meet to comply with the Federal Financial
Management Improvement Act of 1996. These requirements stipulate that systems have
controls over function access (for example, transaction access and authority for approval)
and data access. Furthermore, the Government Accountability Office, “Federal
Information System Controls Audit Manual,” January 1999, concludes that access
controls should be in place to provide reasonable assurance that there is protection of
computer resources against unauthorized modification, disclosure, loss, or impairment.
Inadequate access controls diminish the reliability of computerized data and increase the
risk of destruction or inappropriate disclosure of data.

According to the Core Financial System Requirements, all financial management systems
must have security, internal controls, and accountability built into the processes and must
provide an audit trail. These requirements also state that adequate audit trails are critical
to providing support for transactions and balances maintained by the core financial
system. In addition, with audit trails, agencies are able to reconcile accounts, research
document history, and query data stored in the core financial system.

The Core Financial System Requirements define rules for recording, editing, and
processing transactions input into the core financial system. The core financial system
must ensure that agencies maintain proper control of transactions to provide reasonable
assurance of the availability of funds and ensure that transactions pass other processing
edits. In addition, the core financial system must provide automated functionalities to
support the document and transaction control process, the invoicing process, the
disbursing process, and the audit trails processes.

3
 A new version of Office of Management and Budget Circular No. A-127, dated January 2009, has since
superseded this version.


                                                  3
Review of Internal Controls
DOD Instruction 5010.40, “Managers’ Internal Control (MIC) Program Procedures,”
January 4, 2006, requires DOD organizations to implement a comprehensive system of
internal controls that provide reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified internal control
weaknesses for the USMC. The USMC did not have effective internal controls over the
authorization of payments, separation of duties, and DDS access. Implementing
Recommendations A.1.a through A.2.c will improve payment authorization compliance,
separation of duties, and DDS access controls and could result in potential monetary
benefits of $2.5 million (Appendix C). We will provide a copy of this report to the senior
Navy official responsible for internal controls in the USMC.




                                            4
Finding A. Controls Over Disbursement
Authorizations and DDS Access
The USMC did not have adequate internal controls over the entry of disbursement
transactions and access to transactions in DDS. Specifically, the USMC did not:

      properly authorize 9,675 payments, totaling $310.4 million;

      separate authorization and payment duties; and

      adequately control access because it used 14 multiple user accounts to process
       $5 million in disbursements and 14 generic user accounts to process $47.7 million
       in disbursements.

This occurred because the USMC did not:

      issue appointment letters for personnel who were certifying payment documents
       and did not comply with the separation of duty requirements in the DOD
       Regulation 7000.14-R, “DOD Financial Management Regulation” (DOD FMR),
       and

      have adequate procedures over the use and access of DDS.

In addition, the USMC did not establish adequate oversight over the DDS payment
process and the DDS PMO did not provide sufficient functionality in DDS for
management to readily review and identify access control weaknesses.

As a result, the USMC did not comply with section 3325, title 31, United States Code
(31 U.S.C. 3325) when it made $310.4 million in payments. Further, USMC payments
are at increased risk for unauthorized modification, erroneous payments, or disclosure of
classified information. We found that the USMC made 32 duplicate payments, totaling
$2.5 million and mishandled classified information.

Authorization and Access Requirements
The United States Code (31 U.S.C. 3325) requires the USMC to “disburse money only as
provided by a voucher certified by an officer or employee of the executive agency having
written authorization from the head of the agency to certify vouchers.”

The DOD FMR implements 31 U.S.C. 3325 and Federal financial system requirements.
The DOD FMR provides guidance on the authorization and certification of payment
vouchers and the separation of duties between the certifying and disbursing officials.
In addition, DOD Instruction 8500.2, “Information Assurance Implementation,”
February 6, 2003, states that authorized users with a need-to-know only access data that
applies to their authorized privileges.


                                            5
The Core Financial System Requirements address access controls. In addition, the
National Institute of Standards and Technology, Federal Information Processing
Standards Publication 200, “Minimum Security Requirements for Federal Information
and Information Systems,” March 2006, states that organizations must limit information
system access to authorized users and to the types of transactions and functions that
authorized users are permitted to exercise. Furthermore, the Government Accountability
Office, “Federal Information System Controls Audit Manual,” January 1999 4 , concludes
that access controls should be in place to provide reasonable assurance that there is
protection of computer resources against unauthorized modification, disclosure, loss, or
impairment. Limiting access helps to ensure that:

       users only have the access needed to perform their duties,

       user access is limited to only a few individuals, and

       user access is restricted from performing incompatible functions.

Voucher Authorization
The USMC did not properly authorize vouchers for 9,675 payments totaling
$310.4 million in accordance with 31 U.S.C. 3325 and the DOD FMR. 5 For a payment
to comply with 31 U.S.C. 3325 and the DOD FMR, a properly appointed certifying
officer must authorize the payment. The USMC did not properly appoint certifying
officials. In addition, the USMC used disbursing personnel to both certify vouchers and
make disbursements which should have been duties performed by separate personnel.

Certifying Officer Appointments
The USMC did not properly appoint personnel who certified the 9,675 vouchers for
payment. We requested the certifying officer appointment letters from disbursing offices
at Camps Pendleton, Lejeune, and Foster, which included the remote sites located in
Southwest Asia (for example, Camp Fallujah, Iraq and Camp Al Asad, Iraq). USMC
disbursing offices were unable to provide any certifying officer appointment letters.
USMC officials confirmed that none of the disbursing offices had certifying officer
appointment letters. USMC personnel were not aware that they had not complied with
31 U.S.C. 3325.

Separation of Duties
The USMC did not maintain separation of duties between certifying vouchers and
disbursing funds for 9,675 payments. The separation of duties were lacking because
disbursing office personnel who authorized payments also disbursed funds. That is, the


4
  The Federal Information System Controls Audit Manual was revised in February 2009; however, the
January 1999 version was in effect at the time we tested USMC internal controls and DDS data.
5
  We did not review the archived transactions for entry and access controls because the data was not
available at the time of the review.


                                                    6
same individual who authorized vouchers for payment also input and paid the voucher in
DDS. DOD FMR, volume 5, chapter 33, states that a disbursing officer is not eligible for
appointment as a certifying officer and may not appoint a certifying officer. USMC
personnel stated that their actions complied with DOD FMR, volume 10, chapter 8,
which states, “The disbursing office and designated representatives qualify as certifying
officers and may certify vouchers for payment.” However, certain conditions have to
exist for disbursing personnel to act as certifying officers. The DOD FMR, volume 5,
chapter 33, states that an individual may be appointed as a certifying officer under the
direct supervision of a disbursing officer in special, limited situations, which include
tactical operations. Those special appointments require “direct written notification from
the respective Head of the DOD Component to the designated appointee, or by delegation
through command channels excluding the disbursing officer.” The USMC did not
provide an appointment letter or justification for using the same person to certify a
voucher and disburse funds for payment.

DOD FMR, volume 5, chapter 1 further delineates DOD policy for the separation of
the voucher certifying and disbursing functions. Volume 5 requires the separation
of duties related to disbursement functions such as authorizing, approving, and recording
transactions; making payments; preparing and signing checks; and certifying funding.
On August 27, 2008, we informed the USMC that they had not complied with 31 U.S.C.
3325. The USMC created a policy memorandum on September 8, 2008, to change their
disbursing practices to comply with 31 U.S.C. 3325. We have verified that the USMC
has implemented this policy and, as a result, we are not making a recommendation
addressing the issue.

Access Controls
The USMC did not maintain proper access controls to protect DDS transactions from
increased risk of fraud, waste, and abuse. Specifically, the USMC:

        assigned multiple user accounts to individual DDS users,

        created generic user accounts in DDS that were not assigned to specific
         individuals,

        assigned substitute user accounts for outside agents 6 that did not have access to
         DDS, and

        assigned system administrator access to an excessive number of user accounts.

Multiple User Accounts
The USMC circumvented DDS controls by assigning multiple user accounts to
57 individual users in DDS (see Table 2). An individual with more than one user account


6
 Agents of the disbursing office include appointments with the responsibilities of a disbursing, paying, or
collection agent.


                                                     7
has the ability to bypass separation of duties to process disbursing transactions.
Individuals with multiple user accounts can access several privileges within DDS that are
not available to a single user account. A privilege allows a user to perform assigned
disbursing functions within DDS. These privileges include system administrator,
accounting, payment certification, check printing, and voucher input.

We identified 14 users who processed 296 vouchers for approximately $5 million by
using multiple user accounts. In one instance, a single user from Camp Foster created a
system certified cash disbursement using two user accounts. The voucher supporting
documentation shows that this same individual signed as a certifying official on the DDS
printed voucher, a sub-voucher, and the contract.

                Table 2. USMC Multiple User Accounts FYs 2006 and 2007
        Location             Number of Multiple                 Number of                   Value
                               User Accounts                    Vouchers                (in Millions)
                                                                Processed
                              Created           Used
    Camp Lejeune                 21                3                  34                     $1.9

    Camp Foster                  10                8                 185                      1.3

    Camp Pendleton               26                3                  77                      1.8

      Total                      57              14                  296                     $5.0


Existing DDS controls reduce the risk of using one user account to process a transaction
from beginning to end. The DDS controls limit the types of privileges assigned to a
single user account. For example, if a user account is assigned agent privilege, DDS will
disable the deputy agent and vault privileges.7 DDS also issues a warning message if the
system administrator attempts to assign a single user the agent privilege and additional
privileges such as, system administrator, print checks, and certify disbursement voucher.
The USMC circumvented the DDS controls by creating multiple user accounts within
DDS to process electronic funds transfers and to perform the duties of absent deputy
disbursing officers. The user account list 8 in DDS does not show the system privileges
assigned to users. DFAS should add the user privileges to the DDS user account lists so
management can readily identify assigned privileges when reviewing and monitoring
DDS user access.

The USMC should establish and implement procedures that require management and
oversight personnel to review DDS user account lists and monitor user access. A review
for multiple user accounts and privileges should be a USMC oversight function. The


7
  A vault privilege provides the user the capability to adjust the amount of cash that is in the disbursing
station’s vault. DDS maintains an inventory of cash.
8
  A user account list provides the name of the user, user ID, and the user’s outstanding fund balance.


                                                       8
procedures should eliminate the use of multiple user accounts, thus removing the risk of
misuse of the accounts and privileges. If the USMC requires multiple user accounts for
rare mission critical circumstances, the procedures should require justification.

Generic User Accounts
The USMC established 44 generic user accounts that allow individuals access to DDS
without identification of who processed transactions in DDS (see Table 3). Generic user
accounts in DDS are not specific to an individual, for example, MEU TWENTYSIX,
SYSTEM ADMIN, INPUT DATA, or ANOTHER AGENT. We identified that
14 generic user accounts processed 1,191 vouchers in DDS for $47.7 million. For
example, USMC personnel used the generic user account, PAY AGENT, to create,
certify, and pay 440 vouchers for $35.2 million in DDS. The USMC cannot trace the
vouchers to a specific user to identify who input, certified, or paid the vouchers in DDS.
In another instance, one generic user by the name of PAY AGENT, created and paid
364 of the system voids 9 in DDS. Because the USMC used generic user accounts to
process the system-voided transactions, we could not identify the individual responsible
for processing the transactions, the nature of the transactions, or the cause of the system
voids. In addition, the USMC and DDS information technology specialists could not
provide an explanation as to why these transactions were system voided.

                 Table 3. USMC Generic User Accounts FYs 2006 and 2007
          Location            Number of                   Number of                     Value
                             Generic User                 Vouchers                  (in Millions)
                               Accounts                   Processed
                            Created   Used
    Camp Lejeune              22        4                      209                       $1.6

    Camp Foster                  2            0                   0                          0

    Camp Pendleton              20           10                982                       46.1

      Total                     44           14              1,191                      $47.7


USMC personnel stated that they created and used generic user accounts so they could:

          perform the archive and purge function,

          provide users a backup account if other user accounts are suspended,




9
 A system void is a transaction that was not completed because of an interruption such as power loss or
system restart, for which DDS maintains a voucher number associated with that unpaid transaction.


                                                    9
      relieve staffing issues, and

      set up DDS at deployed sites.

The electronic signature block in the DDS user setup screen does not require the system
administrator to input the title within the disbursing office that correlates to the
appointment letters. DFAS should update the DDS signature block to require the system
administrator to select from a drop-down list, the title within the disbursing office that
correlates to the individual appointment letters. By having to select a title that
corresponds to the appointment letter, this would mitigate the risk the system
administrator would create a generic user account.

On August 27, 2008, we informed the USMC of the problem with using generic user
accounts. The USMC established policy on September 8, 2008, that requires the
elimination of generic user accounts. We have verified that the USMC has implemented
this policy and, as a result, we are not making a recommendation addressing the issue. In
addition, the USMC should periodically review the DDS user account list for the use of
generic user accounts. To ensure the USMC properly paid these transactions that used
multiple and generic user accounts, the USMC should review the transactions. The
USMC should initiate administrative action against the responsible DDS user if they
identify improper payments associated with the multiple and generic user accounts.

Substitute User Accounts
The USMC assigned 18 substitute user accounts to track the accountability of outside
agents; however, the substitute user accounts do not allow for the identification of the
individuals who actually processed the disbursement transactions in DDS. The USMC
created the substitute user accounts in DDS for outside agents working remotely from the
Camp Lejeune disbursing office and who did not have access to DDS. These substitute
user accounts were available to Camp Lejeune disbursing office personnel and not
available to the actual agent assigned to the user account. The agents provided their
payment supporting documentation to the disbursing office to be processed. Disbursing
office personnel accessed DDS using the corresponding agent’s user account (substitute
account) to track the accountability of the agent. We identified that 2 of the 18 substitute
user accounts had processed 3 vouchers in DDS beginning in March 2007. Camp
Lejeune personnel informed us of their use of substitute user accounts in April 2008.

DDS requires each agent to have an assigned user account in order to establish
accountability, but does not capture the identity of the substitute user who actually
processed the transactions for outside agents. According to the DDS PMO, the Camp
Lejeune disbursing office did not have an alternative way to process the transactions that
outside agents made because the outside agents do not have physical access to DDS.
DFAS should create a user role for substitute users in DDS to identify the individual who
actually processed the transaction.




                                            10
System Administrator Access
The USMC assigned the system administrator privilege to 32 out of 52, or 62 percent, of
the individual user accounts in DDS (see Table 4). This privilege allows the user to
access the user setup screen, which includes Privacy Act information of DDS users, such
as their social security number and name. The system administrator privilege allows the
user to:

      manipulate DDS transaction data,

      grant or deny user access by creating user accounts,

      update user accounts,

      assign access privileges,

      reset passwords,

      activate or deactivate accounts,

      back out transactions already certified or paid, and

      archive and purge data.

        Table 4. USMC System Administrator Privilege FYs 2006 and 2007
         Location                 Number of          Number of      Percentage of
                                 Main Site User     User Accounts   User Accounts
                                   Accounts         With System     With System
                                                    Administrator   Administrator
                                                      Privilege       Privilege
 Camp Lejeune                         20                 19             95

 Camp Foster                              9                   4          44

 Camp Pendleton                       23                      9          39

   Totals and Percentage              52                  32             62


USMC personnel stated that they needed to assign the system administrator privilege to
back out transactions. However, the USMC did not have procedures for documenting
and monitoring assignments of the system administrator privilege. The USMC should
establish and implement these procedures such as reviewing the DDS user account list to
ensure they provide the system administrator privilege to the minimum number of users



                                              11
necessary. Inadequate controls over DDS access and usage place payment transactions at
increased risk for unauthorized modification, disclosure, or erroneous payments.

Results of Internal Control Weaknesses
The USMC internal control weaknesses over payment authorizations place payments at
increased risk for unauthorized modification, erroneous payments, or disclosure of
classified information. We found that the USMC made duplicate payments and
mishandled classified information.

Duplicate Payments
The USMC made 32 duplicate payments totaling $2.5 million to vendors for goods and
services and did not take collection on these erroneous payments. We reviewed DDS
commercial and miscellaneous payments made in FYs 2006 and 2007 for selective
attributes and identified 32 duplicate payments totaling $2.5 million. These duplicate
payments included instances where, the USMC:

      overpaid a vendor $225,064 by paying the same invoice three times;

      made a cash payment and a check or electronic funds transfer payment for the
       same goods or services;

      paid for the same invoice and receiving report at multiple locations; and

      made at least nine duplicate payments totaling $0.5 million to one contractor. For
       example, in January 2007, USMC made a $28,000 check payment to this
       contractor against a numbered invoice for goods received in November 2006. In
       September 2007, the USMC made a $28,000 cash payment to this contractor from
       a different disbursing station for the same goods and services for November 2006,
       but this time using a different invoice number and the same receiving report.

We have referred 34 duplicate and triplicate payments to the Defense Criminal
Investigative Service for followup. We provided the USMC with evidence of
17 duplicate payments in September 2008 and requested a response. In June 2009, the
USMC provided evidence that they had taken collection on two of the duplicate
payments. The Government could put to better use the $2.5 million in duplicate
payments by initiating collection on the 32 remaining duplicate payments from the
companies who received the duplicate payments. The USMC should research and initiate
collection procedure where warranted for duplicate payments. In addition, the USMC
should develop and implement procedures to conduct periodic reviews of DDS data to
identify anomalies, which could indicate potential illegal and improper payments. See
Appendix C for the Summary of Potential Monetary Benefits.

Classified Information
The USMC disclosed classified information from 33 payments in two unclassified DOD
systems: DDS and Electronic Document Access/Voucher Processing System
(EDA/VPS). DDS captures disbursement information and makes payments, and


                                           12
EDA/VPS maintains voucher documentation for commercial and miscellaneous
payments processed. DDS feeds disbursement data to EDA/VPS, which provides access
to documents used to support the procurement, contract administration, bill paying, and
accounting processes. Because DDS and EDA/VPS are unclassified systems, these
systems should not contain classified information.

As a result of identifying these vouchers in EDA/VPS, DFAS shut the system down to
remove identified classified information on November 6, 2008, and as of December 3,
2008, DFAS and the USMC had removed 32 of the 33 vouchers we identified as
containing classified information. In addition, the USMC entered data from
four disbursement vouchers containing classified information in the “Payee's Name and
Address” and in the “Payee” fields in DDS.

The USMC took corrective actions in response to DOD IG Report No. D-2009-054,
“Identification of Classified Information in Unclassified DOD Systems During the Audit
of Internal Controls and Data Reliability in the Deployable Disbursing System,”
February 17, 2009. The USMC developed policy to ensure that finance personnel can
identify classified information and remove it before entering it into unclassified systems.
In addition, the USMC researched and identified DDS disbursement transactions
containing classified information and removed the transactions from the system, as a
result, we are not making a recommendation on this issue.

Conclusion
USMC disbursing personnel had not complied with statute when authorizing vouchers for
payment, not separated certifying and disbursing duties when making payments, and
circumvented internal controls for access to DDS information. The USMC needs to
strengthen its procedures and management oversight of disbursing operations to prevent
disbursing personnel from making unauthorized, duplicate, and improper payments.
These procedures should address the disbursement process to ensure disbursing personnel
are making payments in accordance with legal and DOD FMR requirements. In addition,
these procedures should address:

      proper voucher certification requirements,

      separating voucher certification and payment functions,

      written justification for using multiple user accounts,

      eliminating of the use of generic accounts,

      minimizing number of users with the system administrator privilege, and

      periodic reviews of DDS data to identify anomalies that could indicate potential
       illegal and improper payments.

In addition, the DDS PMO did not provide sufficient functionality in DDS for
management to readily identify the assignment of multiple user accounts, generic user


                                            13
accounts, substitute user accounts, and an excessive number of system administrators.
DFAS should make the following improvements to DDS:

      update the DDS signature block to require the System Administrator to select the
       appointment that correlates to the individual appointment letters,

      add user privileges to the DDS user account list, and

      develop a user role that identifies the substitute user processing DDS transactions
       for outside agents.

DOD depends on responsible officials to make payments and to oversee the disbursement
of Government funds. When DOD disbursing personnel are responsible for disbursing
Government funds, strong internal controls over the disbursing operations are critical to
reduce the risk of improper payments or fraudulent activity.

Recommendations, Management Comments, and Our
Response
A.1. We recommend that the Assistant Deputy Commandant, Programs and
Resources Department; and Fiscal Director of the United States Marine Corps:

   a. Develop and implement procedures to:

           1) Eliminate the use of multiple user accounts in the Deployable
              Disbursing System and require justification for rare circumstances
              when multiple users are necessary.

Department of the Navy Comments
The Assistant Secretary of the Navy (Financial Management and Comptroller) (Acting)
agreed. The USMC established policy to eliminate the use of multiple user accounts and
require justification when it is necessary to use a multiple user account. He stated that
the USMC validated compliance with this policy and that all offices are in compliance.

Our Response
Comments from the Assistant Secretary of the Navy (Financial Management and
Comptroller) (Acting) are responsive and no additional comments are required. The
September 8, 2008, USMC policy did not specifically address the assignment of multiple
user accounts to a single individual. However, on November 5, 2009, the USMC
provided the audit team with the Marine Corps Administrative Analysis Team
Disbursing/Finance Office Checklist and Standards. The USMC uses the checklist to
conduct formal unannounced annual inspections. The checklist includes a review to
determine whether Disbursing Officer or Finance Office adheres to separation of duties
within the Deployed Disbursing System.




                                           14
           2) Minimize the number of users with the system administrator
              privilege.

Department of the Navy Comments
The Assistant Secretary of the Navy (Financial Management and Comptroller) (Acting)
agreed. The USMC established policy to restrict system administrator privileges to those
individuals who have no other duties or roles within DDS. He stated that the USMC
validated compliance with this policy and that all offices are in compliance.

Our Response
Comments from the Assistant Secretary of the Navy (Financial Management and
Comptroller) (Acting) are responsive and no additional comments are required. The
September 8, 2008, USMC policy did not specifically address the excessive number of
users assigned the system administrator privilege. However, on November 5, 2009, the
USMC provided the audit team with a list of system administrators demonstrating that
they had deactivated many users with the system administrator privilege.

           3) Review Deployable Disbursing System user’s access, including the use
              of multiple and generic user accounts and system administrator
              privilege, to ensure separation of duties.

Department of the Navy Comments
The Assistant Secretary of the Navy (Financial Management and Comptroller) (Acting)
agreed. The USMC established policy to eliminate generic user accounts and system
administrator privileges, and to ensure separation of duties. He stated that the USMC
validated compliance by with this policy and that all offices are in compliance.

Our Response
Comments from the Assistant Secretary of the Navy (Financial Management and
Comptroller) (Acting) are responsive and no additional comments are required. The
September 8, 2008, USMC policy did not specifically address the review for multiple
user accounts and an excessive number of system administrators. However, on
November 5, 2009, the USMC provided the audit team with the Marine Corps
Administrative Analysis Team Disbursing/Finance Office Checklist and Standards,
which the USMC uses to conduct formal unannounced annual inspections. The checklist
includes a review to determine whether Disbursing Officer or Finance Office adheres to
separation of duties within the Deployed Disbursing System.




                                           15
           4) Conduct periodic reviews of Deployable Disbursing System data to
              identify anomalies, which could indicate potential illegal and
              improper payments. When warranted, the United States Marine
              Corps should initiate collection procedures on identified improper
              payments.

Department of the Navy Comments
The Assistant Secretary of the Navy (Financial Management and Comptroller) (Acting)
agreed. He stated the USMC conducts monthly and annual reviews along with formal
unannounced reviews of DDS to identify anomalies that could indicate illegal and
improper payments and, when warranted, to initiate corrective action.

Our Response
Comments from the Assistant Secretary of the Navy (Financial Management and
Comptroller) (Acting) are responsive and no additional comments are required. The
USMC provided the audit team with the Marine Corps Administrative Analysis Team
Disbursing/Finance Office Checklist and Standards on November 5, 2009. The checklist
includes a standard of establishing an effective Internal Control Audit Program to prevent
or discover unauthorized, fraudulent, or otherwise irregular transactions or activities. In
addition, on November 13, 2009, the Deputy Director, Marine Corps Disbursing
Operations and Systems Section, stated that the USMC is working with DFAS to develop
a DDS query function to identify potential duplicate payments.

   b. Perform reviews of Deployable Disbursing System procedures implemented
      in Recommendations A.1.a.1-4 during periodic reviews of disbursing offices.

Department of the Navy Comments
The Assistant Secretary of the Navy (Financial Management and Comptroller) (Acting)
agreed. He stated that USMC’s policy requires offices to conduct internal assessments of
compliance regarding DDS profiles and access every 60 days. In addition, the USMC
conducts annual informal on-site reviews and formal unannounced inspections to ensure
compliance with regulations and policy memorandums.

Our Response
Comments from the Assistant Secretary of the Navy (Financial Management and
Comptroller) (Acting) are responsive and no additional comments are required.

   c. Review the transactions processed using multiple and generic user accounts
      to ensure the payments were proper. The United States Marine Corps
      should initiate administrative action against the responsible Deployable
      Disbursing System user if they identify improper payments associated with
      the multiple and generic user accounts.




                                            16
Department of the Navy Comments
The Assistant Secretary of the Navy (Financial Management and Comptroller) (Acting)
agreed. He stated they examined transactions processed by the multiple and generic user
accounts as part of USMC’s monthly and annual reviews. The USMC did not identify
any improper payments associated with those multiple and generic user accounts.

Our Response
Comments from the Assistant Secretary of the Navy (Financial Management and
Comptroller) (Acting) are responsive and no additional comments are required.

   d. Review the Deployable Disbursing System payments for FY 2006 and
      FY 2007 for duplicate payments and collect the over payments.

Department of the Navy Comments
The Assistant Secretary of the Navy (Financial Management and Comptroller) (Acting)
agreed. The USMC conducts reviews on a monthly and annual basis. He stated they
have or will resolve 24 of the 32 duplicate payments using a collection or a reduced
payments voucher. He stated that 8 of the 32 duplicate payments remain outstanding, but
that the USMC has issued demand letters to the vendors.

Our Response
Comments from the Assistant Secretary of the Navy (Financial Management and
Comptroller) (Acting) are responsive and meet the intent of the recommendation. The
USMC provided collection vouchers for 11 of the 32 duplicate payments representing
cash collections or offsets totaling $0.9 million. The USMC also provided two demand
letters requesting repayment for overpayments. We have provided the remaining
duplicate payments to Defense Criminal Investigative Service for followup. On
November 13, 2009, the Deputy Director, Marine Corps Disbursing Operations and
Systems Section, stated that the USMC is working with DFAS to develop a DDS report
to identify potential duplicate payments. On November 24, 2009, the Deputy Director
stated the USMC will complete the review for duplicate payments by September 1, 2010.

A.2. We recommend that the Director, Defense Finance and Accounting Service:

   a. Update the Deployable Disbursing System signature block to require the
      System Administrator to select the appointment that correlates to the
      individual appointment letters.

   b. Add user privileges to the Deployable Disbursing System user account list.

   c. Develop a user role that identifies the substitute user processing Deployable
      Disbursing System transactions for outside agents.




                                          17
Defense Finance and Accounting Service Comments
The Director, DFAS Information and Technology, agreed. DFAS has written System
Change Requests to add user privileges to the DDS user account list and to develop a user
role identifying substitute users. The Strategic Disbursing Initiative Change Control
Board will consider these modifications and schedule completion dates at its next
scheduled meeting in January 2010.

Our Response
Comments from the Director, DFAS Information and Technology, are responsive and no
additional comments are required.

Management Comments on the Potential Monetary
Benefits and Our Response
The United States Marine Corps Comments
We followed up with the USMC to determine whether they agreed with the potential
monetary benefits identified in the report. On November 17, 2009, the Deputy Director,
Marine Corps Disbursing Operations and Systems Section, confirmed that the USMC
concurs with the potential monetary benefits.

Our Response
Comments from the USMC are responsive and no additional comments are required.




                                           18
Finding B. Reliability of USMC Payment Data
The USMC commercial and miscellaneous payment data processed through the USMC
financial system was incomplete and inaccurate. Specifically, the USMC financial
system, which includes DDS, did not:

      maintain complete or accurate certifying officer, contract or requisition numbers,
       invoice received date, or invoice number data for 185 out of 200 payments
       reviewed;

      adequately capture the line of accounting information; and

      maintain a complete set of DDS data and all the data elements that make up a
       finalized transaction.

This occurred because:

      the USMC did not have an integrated entitlement system and, as a result,
       manually entered key commercial payment information into the USMC financial
       system using DDS;

      there was a delay between the time the user entered new accounting line
       information and the time DDS saved the new accounting line information to the
       DDS database; and

      the USMC did not maintain a centralized DDS database and the DDS archive
       process did not capture all data elements.

As a result, the USMC financial system did not have adequate audit trails for payment
transactions and did not comply with the Federal system requirements. The USMC DDS
files did not account for all the commercial and miscellaneous payments. In addition,
DOD funds are at an increase risk for fraud, waste, and abuse.

Data Reliability Requirements
The Core Financial System Requirements state that audit trails are essential to providing
support and must exist for recorded transactions. In addition, the Government
Accountability Office has provided guidance related to accounting systems and data
reliability. The Government Accountability Office Report No. GAO-03-273G,
“Assessing the Reliability of Computer-Processed Data,” October 2002, states that data
are reliable when they are:

      complete (they contain all of the data elements and records needed for the
       engagement), and

      accurate (they reflect the data entered at the source or, if available, in the source
       documents).


                                              19
DOD FMR requires that DOD Components, including the USMC and DFAS, maintain a
complete and documented audit trail. Audit trails enable the tracing of a transaction from
the manual vouchers and supporting documentation to the financial statements. This is
necessary to demonstrate the accuracy, completeness, and timeliness of a transaction.
This is also necessary to provide documentary support, if required, for all data generated
by the USMC and submitted to the DFAS for recording in the accounting systems and
use in financial reports. Agencies should ensure they code each charge to an
appropriation or fund with a complete accounting classification and country code, when
applicable.

DDS Payment Information
The USMC financial system, which includes DDS, did not capture or maintain all key
payment information and the audit trail required by the Core Financial System
Requirements for 185 of 200 vouchers we reviewed. Specifically, DDS and the USMC
financial system did not:

          capture the name of the individual certifying the voucher (91 vouchers),

          prevent the voucher from being processed and paid if the contract or requisition
           number was absent (132 vouchers),

          accurately capture the invoice received date (103 vouchers), and

          capture the invoice number for check or cash commercial payments
           (35 vouchers).

We reviewed a statistical sample of 200 payment vouchers for data reliability from the
consolidated databases of 9,675 disbursements totaling $310.4 million provided by the
DDS PMO. 10 The sample included 160 commercial and 40 miscellaneous payments.

DDS was the initial point of entry into the USMC financial system for commercial and
miscellaneous payments. The USMC did not have an integrated entitlement system to
populate key payment information in DDS. As a result, the USMC currently processes
commercial and miscellaneous payment information into DDS manually. Because the
USMC relied on manual input of key commercial and miscellaneous payment
information into DDS, its financial system did not capture or maintain key payment
information and the audit trail required by the Core Financial System Requirements.
USMC personnel stated that they have initiated plans to use an entitlement system, the
Computerized Accounts Payable System, which will interface with DDS to process
commercial and miscellaneous payment transactions. DFAS should enhance DDS to
capture and maintain key payment information and to meet the audit trail requirements in
the Core Financial System Requirements.



10
     We did not sample the archived transactions because the data was not available at the time of our review.


                                                       20
Certifying Officer Name
DDS did not capture the name of the individual who certified 91 of the 200 sample
vouchers for payment. The job title (for example, pay agent) of the individuals who
submitted the 91 vouchers for electronic certification in DDS was different from the
individual’s job title who actually certified the voucher for payment with a handwritten
signature. The signature block of the voucher 11 that DDS produces reflects the “Title” of
the DDS user who recorded the certification in the system while the handwritten
signature included in the signature block reflects who manually certified the payment.
According to DOD FMR, volume 5, chapter 33, certifying officers are pecuniarily liable
for erroneous payments and must rely on the efforts of others who support the
certification process. Section 2773a, title 10, United States Code holds the departmental
accountable officials pecuniarily liable for illegal, improper, or incorrect payments
resulting from the negligent provision of information, data or services to certifying
officials. The inability to identify who certified the voucher prevents the USMC from
identifying who is pecuniarily liable for the payment. As a result, DFAS should modify
DDS to capture the name of the certifying officer signing the vouchers to ensure that
DDS reflects the actual certifier, the individual who is pecuniarily liable for the payment.

Contract and Requisition Numbers
The DDS data for 132 of the 160 commercial pay vouchers in our sample did not contain
a contract or requisition number in the contract or requisition number field. The contract
and requisition numbers were available in the supporting documentation. DDS does not
require the user to populate the contract or requisition number field for commercial
payments to complete the processing of the data. The Core Financial System
Requirements state that the core financial system must provide automated functionality to
record an agency-assigned source document number, which may be a contract or
requisition number.

DDS currently provides the field to record a contract or requisition number; however, the
users do not populate the field every time a commercial pay voucher is processed. This
reduces the adequacy of the audit trail. In order for the USMC to maintain an adequate
audit trail, DFAS should modify DDS to require the user to populate the contract or
requisition number field before they can process a commercial payment.

Invoice Received Date
DDS did not accurately capture the invoice-received date for 103 of the 200 payment
vouchers reviewed. The Core Financial System Requirements state that adequate internal
controls must be in place to verify that the USMC ordered, received, accepted, and paid
for goods and services and that they computed proper due dates and payment amounts.
To support this invoicing process, the core financial system must provide automated
functionality to capture the invoice receipt date.




11
     Standard Form 1034, Public Voucher for Purchases and Services Other Than Personal.


                                                   21
DDS does not allow the user to process the voucher unless the invoice-received date
is populated. However, DDS automatically pre-populates the invoice received date field
with the current business date, which was often not the actual date of the invoice receipt.
Because DDS pre-populates the invoice-received date, the system relies on the user
to manually update the current business date with the actual commercial payment
invoice-received date. This affects the ability of the user to calculate interest or discounts
in compliance with the Prompt Payment Act. DFAS should modify DDS so the system
does not pre-populate the invoice received date field with the current business date while
maintaining the requirement to enter an invoice received date.

Invoice Number
The supporting documentation for 35 of the 200 sample vouchers contained invoice
numbers; however, DDS did not provide the capability to capture these invoice numbers.
DDS currently has the ability to capture the invoice numbers for electronic funds transfer
commercial payments, but it does not maintain the ability to capture invoice numbers for
check or cash commercial payments. Additionally, DDS does not maintain the capability
to validate for duplicate invoice numbers or the ability to query on the invoice number
field. The Core Financial System Requirements state that the core financial system must
provide the functionality to capture the invoice number and the functionality to validate
for duplicate invoice numbers in order to prevent duplicate payments. The inability to
capture the invoice number or validate for duplicate invoice numbers inhibits users’
ability to query the vouchers by invoice number, limiting the audit trail, which may lead
to duplicate payments made using the same invoice. For example, the USMC paid an
invoice for $735,600 on January 14, 2007, and later paid that same invoice again on
February 28, 2007. Therefore, DFAS should modify DDS to capture invoice numbers of
check and cash commercial payments and the ability to validate for duplicate invoice
numbers for electronic funds transfer, check, and cash commercial payments.

Line of Accounting
The USMC did not ensure DDS captured the line of accounting information for 21 out of
9,675 disbursement vouchers. The line of accounting for the 21 USMC disbursement
vouchers did not reside within the DDS data, and the line of accounting did not appear on
the DDS generated voucher. This occurred because of a delay between the time the user
entered new accounting line information into the DDS table and the time DDS saved the
new accounting line information to the DDS database. The supporting documentation for
19 of the 21 disbursement vouchers revealed that 4 of the vouchers contained a
handwritten line of accounting in their supporting documentation.

OMB Circular A-127 requires financial management systems to reflect an agency-wide
financial information classification structure that is consistent with the U.S. Standard
General Ledger. The Core Financial System Requirements state that the core financial
system must provide automated functionality to maintain an accounting classification
structure that includes the treasury account symbol; budget fiscal year; internal fund
code; organization; program; project; activity; cost center; object class; revenue source;
budget function; budget sub-function code; and the accounting period. In addition, DOD
FMR, volume 5, chapter 11, states that agencies should ensure they code each charge to


                                             22
an appropriation or fund with a complete accounting classification and country code,
when applicable. If the space available for the accounting classification data is
insufficient, then list the information on a continuation form.

We informed the DDS PMO that DDS generated vouchers without a line of accounting.
The DDS PMO demonstrated that they fixed this problem in version 3.3 of the
application, which USMC implemented at Camps Pendleton, Lejeune, and Foster
September through November 2008. As a result, we are not making a recommendation
addressing this issue.

Centralized Database
The USMC did not have a centralized database to maintain all DDS transactions and to
ensure the completeness of DDS data. DDS did not maintain complete records of all
disbursement transactions because the DDS archive process did not capture key
information required by the Core Financial System Requirements. DFAS developed
DDS to operate as a standalone application; the USMC maintained separate databases for
each disbursing site. As a result, DDS PMO and USMC personnel could not provide, in
a timely manner, a complete set of DDS data for this audit.

DDS Databases
The USMC financial system did not maintain a complete set of DDS data. The DDS
PMO and the USMC personnel did not immediately provide us the FYs 2006 and 2007
DDS databases. We initially requested these databases in October 2007 and did not
receive our total universe of DDS data for 9,675 vouchers until March 2008. We tested
completeness of the FYs 2006 and 2007 DDS databases and identified that at least
14,003 USMC vouchers were missing from the DDS data originally provided. In
October 2008, we notified the DDS PMO of the missing vouchers; personnel provided
archived files containing only 13,197 vouchers, totaling $209.6 million. The DDS PMO
did not provide DDS data for the remaining 806 USMC disbursement vouchers and could
not provide an explanation of what happened to the data for these vouchers. The USMC
should coordinate with the DDS PMO in locating the missing DDS data for these
806 vouchers. If the USMC cannot locate the missing data, they should research the
vouchers and reconstruct the DDS data.

Archived Data
The DDS archive process did not capture key information required by the Core Financial
System Requirements. The Core Financial System Requirements state that core financial
systems must provide the functionality to capture all document changes, including the
date, time, and user identification to support the audit trail. However, the DDS voucher
archive process 12 only captures the title and not the name of the user that certified each
disbursement for payment. As a result, the DDS voucher archive process did not



12
  This refers only to the archiving process of “Standard Form 1034. Public Voucher for Purchases and
Services Other Than Personal.”


                                                   23
maintain an audit trail to identify the individuals who paid or certified 12,873 13 of the
13,197 archived disbursements in FYs 2006 and 2007. The identity of the individuals
who paid or certified the disbursement is critical for payment accountability. The DDS
PMO should update the archive process to capture this key information.

The USMC and DFAS should develop and maintain a centralized database of the
transactions processed through the Deployable Disbursing System. A centralized
database would provide useful information for USMC financial managers to better
manage and evaluate disbursing operations, and better provide oversight on how the
USMC uses funds. USMC financial managers could also evaluate the centralized
database by using data mining tools to identify the improper payments and user access
issues presented in this report.

Conclusion
USMC audit trails for commercial and miscellaneous payment data processed through
DDS are inadequate, and DDS did not comply with the financial system requirements in
the Federal Financial Management Improvement Act of 1996. The USMC and DFAS
should improve the accuracy and completeness of USMC commercial and miscellaneous
payment data processed through DDS. DFAS should modify DDS to require the input of
key payment information and capture key data elements in the archiving process. In
addition, the USMC and DFAS should develop and maintain a centralized database of the
transactions processed through DDS. Without complete and accurate data and a
transparent audit trail, DOD funds are at an increased risk for fraud, waste, and abuse.

Revised Recommendation
In response to recommendation B.1.a, DFAS worked with the USMC in locating and
providing the missing transactions to the audit team. As a result of reconciling the
information provided by USMC and DFAS to our original list of missing vouchers, we
concluded that the original number of missing vouchers should have been 806 and not the
815 presented in the draft report. We revised the numbers in the finding and in
recommendation B.1.a accordingly.

Recommendations, Management Comments, and our
Response
B.1. We recommend that the Assistant Deputy Commandant, Programs and
Resources Department; and Fiscal Director of the United States Marine Corps, in
coordination with the Director, Defense Finance and Accounting Service:

     a. Locate the missing Deployable Disbursing System data for the 806 United
     States Marine Corps’ disbursement vouchers not provided by the Deployable
     Disbursing System Program Management Office. If they are unable to locate


13
  Of the 13,197 disbursements, 12,873 used Standard Form 1034; 320 were manual disbursements;
and 4 used Standard Form 44, “Purchase Order-Invoice-Voucher.”


                                                 24
       these missing data, the United States Marine Corps should research the
       vouchers and reconstruct the Deployable Disbursing System data.

Department of the Navy and Defense Finance and Accounting
Service Comments
The Assistant Secretary of the Navy (Financial Management and Comptroller) (Acting),
and the Director, DFAS Information and Technology, agreed. DFAS worked with the
USMC in locating and providing the audit team with the missing transactions.

Our Response
Comments from the Assistant Secretary of the Navy (Financial Management and
Comptroller) (Acting) and the Director, DFAS Information and Technology, are
responsive to the recommendations and no additional comments are required. We
received the missing vouchers from the DDS PMO on October 21, 2009.

   b. Develop and maintain a centralized database of the transactions processed
      through the Deployable Disbursing System.

Department of the Navy and Defense Finance and Accounting
Service Comments
The Assistant Secretary of the Navy (Financial Management and Comptroller) (Acting)
and the Director, DFAS Information and Technology, agreed. They stated that DFAS has
completed development of a centralized repository that should be operational in
November 2009.

Our Response
Comments from the Assistant Secretary of the Navy (Financial Management and
Comptroller) (Acting) and the Director, DFAS Information and Technology, are
responsive and no additional comments are required. On November 5, 2009, we met
with the DDS PMO and verified that they have completed the centralized repository.

B.2. We recommend that the Director, Defense Finance and Accounting Service,
establish a time-phased plan to modify the Deployable Disbursing System to:

   a. Capture the name of the certifying officer signing the vouchers to reflect the
      actual certifier.

   b. Require users to enter the contract number or requisition number for
      commercial payments.

   c. Eliminate the pre-population of the invoice received date field with the
      current business date while maintaining the requirement to enter an invoice
      received date.




                                          25
   d. Capture the invoice number(s) for commercial payments and maintain the
      ability to validate for duplicate invoice numbers.

   e. Capture, within the archive data, the identity of an individual who pays or
   certifies a voucher.

Defense Finance and Accounting Service Comments
The Director, DFAS Information and Technology, agreed. DFAS has written System
Change requests and will submit them to the Strategic Disbursing Initiative Change
Control Board in January 2010.

Our Response
Comments from the Director, DFAS Information and Technology, are responsive and no
additional comments are required.




                                         26
Finding C. Recording Obligations
The USMC timely 14 and sufficiently recorded $6.3 million in obligations for
150 commercial and miscellaneous payments processed in the DDS databases. We did
not review the obligations for the disbursements that USMC had archived because the
information was not available at the time of our test.

Obligation Requirements
DOD FMR, volume 10, chapter 1, requires that a planned disbursement match a recorded
obligation before DOD personnel make the payment. The requirement is in place for
personnel to determine if an obligation is sufficient to cover the planned disbursement.
However, DOD FMR, volume 3, chapter 8, recognizes that on occasion personnel can
make a disbursement without the related obligation having been recorded previously by
allowing the obligation and the payment to be recorded simultaneously. In general, DOD
personnel should not disburse funds if they have not been legally obligated. The timely
and accurate recording of obligations facilitates the disbursing officer’s ability to verify
fund availability before authorizing a payment.

Voucher Analysis
The USMC timely and sufficiently recorded obligations for commercial and
miscellaneous payments processed in the DDS FYs 2006 and 2007 databases. We
reviewed obligations related to 150 vouchers, totaling $6.3 million, out of the 200
randomly sampled vouchers. We used the standard document number from the DDS
voucher line of accounting as the unique identifier to locate the related obligation records
in the SABRS. We analyzed each DDS voucher to determine whether an obligation
amount greater than or equal to the payment amount that USMC recorded in SABRS was
obligated in accordance with regulations.

We did not review obligations for the remaining 50 sample vouchers totaling $0.7 million
because there was no matching obligation recorded in SABRS or the voucher was outside
the scope of the audit. The obligation information was not in SABRS or not reviewed for
justifiable reasons.

         Of the 50 vouchers, 27 vouchers contained disbursements against Army and
          Defense appropriations. These payments were not against allocations received
          and executed by the USMC. As a result, the USMC did not record an obligation
          in SABRS.




14
  An obligation is reported “timely” if the obligation date was recorded in the accounting system on or
before the DDS disbursement date.


                                                    27
       The USMC and DFAS personnel indicated that 16 of the 50 vouchers related to
        military payments. We did not review the obligations associated with these
        military pay related disbursements because the audit scope was limited to
        commercial and miscellaneous payment vouchers.

       Of the 50 vouchers, 7 were for miscellaneous payments posted to a budget
        clearing account (suspense). Because the USMC does not record budget
        clearing account transactions in SABRS, we could not match these transactions
        to obligations in SABRS.

Because the USMC timely and sufficiently recorded the obligations in SABRS for the
150 disbursements in our sample of DDS vouchers, we are not making any
recommendations.




                                         28
Appendix A. Scope and Methodology
We conducted this performance audit from May 2008 through September 2009 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.

In FYs 2006 and 2007, the USMC processed through DDS more than 22,872 commercial
(contract and vendor payments) and miscellaneous payment vouchers totaling at least
$520 million. We received complete DDS data for 9,675 vouchers. We received
archived data for an additional 13,197 commercial and miscellaneous USMC DDS
payments. We could not review these archived vouchers because we did not receive the
archived DDS data in time for our review and because DDS does not capture certain key
data elements in the archived files. In addition, the DDS PMO could not provide DDS
data for 806 USMC disbursement vouchers. Therefore, this was a scope limitation. We
believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

From the DDS databases the DDS PMO originally provided, we obtained a universe for
FY 2006 and FY 2007 USMC vouchers, which totaled 9,675 vouchers valued at
$310.4 million. We selected a statistical sample from this universe. The universe
included commercial and miscellaneous payment vouchers from the three USMC
disbursing stations: Camp Pendleton, California; Camp Lejeune, North Carolina; and
Camp Foster, Okinawa, Japan. Our statistical sample approach resulted in the selection
of 200 vouchers.

The table shows a break out of the vouchers by location. We tested the reliability of DDS
payment information by comparing 200 hard copy vouchers and supporting
documentation to the DDS data. In addition, we reviewed USMC obligations related to
$6.3 million of disbursement vouchers from 150 of the 200 randomly sampled vouchers.
The other 50 vouchers were outside the scope of the audit, as discussed in Finding C.

                Statistical Sample of USMC Payment Vouchers
       Location             Number of Vouchers          Amount

Camp Lejeune                            161                      $4,528,123

Camp Foster                              12                           15,039

Camp Pendleton                           27                       2,519,789

   Total                                200                      $7,062,951




                                           29
We analyzed the selected payment vouchers to determine whether internal controls over
transactions processed through the DDS are adequate to ensure the reliability of the data
processed. We completed a review of the sample vouchers to determine if key data
elements such as certifying official information, contract and requisition numbers,
invoice received date, and invoice number were complete and accurate.

We compared the universe of DDS data to data from SABRS to verify that all the DDS
data matched to data within SABRS and that the data was complete and accurate.

Use of Computer Processed Data
We relied upon computer-processed data obtained from DDS and SABRS to perform this
audit. We performed a reliability assessment for computer-processed data out of DDS.
As discussed in Findings A and B of this report, we found DDS control weaknesses and
data discrepancies, in that the USMC DDS data was incomplete and inaccurate. We
assessed the reliability of SABRS data by comparing the line of accounting from
hardcopy vouchers and DDS data to SABRS data. As discussed in Finding C, we did not
find discrepancies in the reliability of the data. We assessed the reliability of EDA/VPS,
a document repository, by comparing the hardcopy vouchers and supporting
documentation in EDA/VPS to the DDS data. We did not find discrepancies in the
reliability of the EDA/VPS data. As a result, we found the SABRS and EDA/VPS data
sufficiently reliable for our purposes.

Use of Technical Assistance
The Quantitative Methods and Analysis Division, Quantitative Methods Branch,
provided technical assistance throughout the sample selection. The Quantitative Methods
Branch provided a sample of disbursements from the DDS to test for reliability.

The Quantitative Methods and Analysis Division, Data Mining Branch, consolidated the
DDS databases provided by the DDS PMO into the data mining program for the audit
team to analyze.

Prior Coverage
During the last 5 years, the Department of Defense Inspector General (DOD IG)
and the Army Audit Agency (AAA) have issued five reports discussing the
Deployable Disbursing System. One can access unrestricted DOD IG reports at
http://www.dodig.mil/audit/reports. One can access unrestricted AAA reports
at https://www.aaa.army.mil/.

DOD IG
DOD IG Report No. D-2009-054, “Identification of Classified Information in
Unclassified DOD Systems During the Audit of Internal Controls and Data Reliability in
the Deployable Disbursing System,” February 17, 2009

DOD IG Report No. D-2009-003, “Internal Controls Over Army General Fund, Cash and
Other Monetary Assets Held Outside of the Continental United States,” October 9, 2008


                                            30
DOD IG Report No. D-2008-098, “Internal Controls Over Payments Made in Iraq,
Kuwait, and Egypt,” May 22, 2008

DOD IG Report No. D-2008-040, "Defense Retiree and Annuitant Pay System and
Deployable Disbursing System Compliance with the Defense Business Transformation
System Certification Criteria," January 4, 2008

Army
AAA Report: A-2003-0360-FFG, “Validation of the Deployable Disbursing System -
Defense Finance and Accounting Service," July 21, 2003




                                        31
    Appendix B. USMC Disbursement Cycle
USMC Procurement and Disbursing Processes

The USMC procurement and disbursing process begins with the entry of purchase data
into the procurement system and culminates with a payment out of DDS. See the
flowchart of this process on the next page. The requestor enters a procurement request
into the USMC in-theater procurement system. Upon approval of the request, the Marine
Expeditionary Force Comptroller’s Office commits funding in the SABRS. The
Comptroller Office then routes the commitment to the contracting manager who will then
award a contract. The contracting manager enters the contract information into the
procurement system and routes the information back to the Comptroller’s Office to
obligate funds in SABRS. The vendor provides the goods or services and submits an
invoice. The receiving official acknowledges receipt of goods or services on the
receiving report. The payment cell1 prepares a payment package, which includes the
vendor invoice, receiving report, and contract. The payment cell submits the payment
package to the Comptroller’s Office so the payment can be pre-validated. Finally, the
Comptroller’s Office submits the payment package to the certifying officer for review
and certification. Once the certifier approves the payment package, the disbursing office
can make the payment.

The disbursing office uses DDS to process manual SF 1034, Public Voucher for
Purchases and Services Other Than Personal, vouchers from deployed disbursing agents.
The disbursing office makes payments using DDS by cash, check, or electronic funds
transfer. The disbursing office enters the payment data into DDS and scans the
supporting documentation into the EDA/VPS for record retention. DDS interfaces with
EDA/VPS to provide an electronic copy of the voucher data. Then EDA/VPS matches
the voucher data with the appropriate supporting documentation.

In addition to providing transaction data to EDA/VPS, DDS provides transaction data to
the Expenditures and Collections and the Treasury system through an interface. The
Expenditures and Collections system forwards transactional data through an interface to
the Defense Cash Accountability System. The Defense Cash Accountability System
interfaces with the Treasury system and SABRS. SABRS then provides trial balance data
to the Defense Departmental Reporting System for creation of budgetary reports, using
the Budgetary Module, and the USMC financial statements, using the Audited Financial
Statements Module.




1
 The payment cell, housed in the contracting office, collects the contract modification documents, contract,
checklist, invoice, and DD Form 250, Material Inspection and Receiving Report, for preparation of the
payment package.


                                                    32
USMC Flow of DDS Disbursement Transactions 2



            Manual Voucher
           and/or Supporting
            Documentation         Transaction Data
                                                          DDS




                               Transaction Data
      Manual Scan &
          Upload of                                         Transaction
         Supporting                                         Data
      Documentation                                                                 Transaction
                                                                                    Data




               EDA/VPS                               Expenditures &
                                                       Collections




                                                              Transaction
                                                              Data




                                                                          Transaction
                                 Transaction Data    Defense Cash            Data
                SABRS                                Accountability                         Treasury
                                                        System




             Trial
          Balance




                                                                                         USMC Financial
                                    Trial                                                  Statements
                                   Balance
                DDRS-B                               DDRS-AFS




2
    Defense Departmental Reporting System-Budgetary (DDRS-B);
    Defense Departmental Reporting System-Audited Financial Statements (DDRS-AFS)


                                                     33
Appendix C. Summary of Potential Monetary
Benefits

Recommendation                          Amount of
   Reference     Type of Benefit         Benefit         Account
                 Economy and
                 Efficiency. The
                 Government could                   $2.3 million from
                 better use these                   Operations and
                 funds for needed                   Maintenance,
     A.1.d       projects.          $2.5 million    Marine Corps

                                                    $0.2 million from
                                                    Operations and
                                                    Maintenance, Army




                                       34
Department of the Navy Comments




                              35
36
37
Defense Finance and Accounting Service Comments




                  Click to add JPEG file




                                 38
Click to add JPEG file




               39
40
41
42
